<html>
<title> - DEFENSE LANGUAGE AND CULTURAL AWARENESS TRANSFORMATION: TO WHAT END? AT WHAT COST?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-155]
 
DEFENSE LANGUAGE AND CULTURAL AWARENESS TRANSFORMATION: TO WHAT END? AT 
                               WHAT COST? 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JULY 9, 2008


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-211 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     
  






               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 Andrew Hyde, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant









                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, July 9, 2008, Defense Language and Cultural Awareness 
  Transformation: To What End? At What Cost?.....................     1

Appendix:

Wednesday, July 9, 2008..........................................    31
                              ----------                              

                        WEDNESDAY, JULY 9, 2008
DEFENSE LANGUAGE AND CULTURAL AWARENESS TRANSFORMATION: TO WHAT END? AT 
                               WHAT COST?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Brecht, Dr. Richard D., Executive Director, Center for Advanced 
  Study of Language, University of Maryland......................     3
Krepinevich, Dr. Andrew F., Jr., President, Center for Strategic 
  and Budgetary Assessments......................................     9
McFate, Dr. Montgomery, Senior Social Science Advisor, Joint 
  Advanced Warfighting Division, Institute for Defense Analyses..     7
Zalman, Dr. Amy, Policy Analyst, Science Applications 
  International Corporation (SAIC)...............................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    37
    Brecht, Dr. Richard D........................................    39
    Krepinevich, Dr. Andrew F., Jr...............................   104
    McFate, Dr. Montgomery.......................................    95
    Snyder, Hon. Vic.............................................    35
    Zalman, Dr. Amy..............................................    86

Documents Submitted for the Record:

    ``Outlines of a National Language Education Policy in the 
      Nation's Interest: Why? How? Who is Responsible for What?'' 
      paper delivered by Richard D. Brecht to the Foreign 
      Language Education Policy Colloquium, University of 
      California at Berkeley, October 2005, submitted by Dr. 
      Richard D. Brecht..........................................   119

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Johnson..................................................   148
    Dr. Snyder...................................................   145
DEFENSE LANGUAGE AND CULTURAL AWARENESS TRANSFORMATION: TO WHAT END? AT 
                               WHAT COST?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Wednesday, July 9, 2008.
    The subcommittee met, pursuant to call, at 2:34 p.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Why don't we go ahead and get started.
    We have got votes coming up sometime in a half hour, 45 
minutes or somewhere in that range, and I don't think it will 
be a terribly long break. I don't think we have a very 
complicated day. So whenever that occurs, we will leave and 
hope that you will stay with us.
    Welcome to all of you today to our witnesses and folks in 
attendance and to the members. Our topic today is Defense 
Language and Cultural Awareness Transformation: To what end? At 
what cost?
    And the witnesses may not know it, but our staff puts 
together a hearing memo before each of these events. And I 
liked the one so much for today, I am going to lift it. I am 
going to read from a couple of paragraphs from it as my opening 
statement.
    Many experts say as there will be a continuous need for the 
Department of Defense (DOD) to focus on irregular warfare, 
building partnerships with foreign countries and the sustained 
effort required by the long war, all spotlighting a need for 
greater foreign language proficiency and cultural competency in 
U.S. forces. If this is indeed the environment in which we 
expect our forces to operate, then that forms the fundamental 
basis for looking at the range of these capabilities. Deciding 
on the optimal level and extent of proficiency, given resource 
limitations is the difficult part.
    Today's hearing will focus, I hope, on the following 
questions: What should be the military's overarching goal in 
terms of the distribution and level of language skills and 
cultural awareness capabilities to support national security 
requirements? And given that acquiring these capabilities comes 
at a cost in terms of money, time and readiness in other areas, 
what price should the Nation be willing to pay? As a result, 
what is the vision of the future?
    And to put it another way, for every time or hour or month 
spent in language school, a person in the military is not 
learning something else, and so the question becomes language 
capability at what risk.
    And I would say the other question is, also, if we don't do 
the language training, at what risk? And I think that is the 
core of what we are trying to get at today.
    Most seem to agree that more language and cultural 
awareness is a necessary and desirable trait for the 21st 
century U.S. military in its role supporting national security. 
But how much is appropriate for the military and what career 
fields and in what ranks should it be concentrated? How widely 
should it be dispersed among military and civilian personnel? 
How much can be gained through a reserve corps or contractors? 
What should the needed training aim to emphasize? And no matter 
how worthy an objective, what will not get done as a result? 
Will other aspects of readiness be sacrificed?
    And, Mr. Akin, I think I will let you do your opening 
statement now, and then I will show my film clip, and then I 
will go to our witnesses. So Mr. Akin for any comments he would 
like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 35.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    This is a topic that I think continuously is generated more 
and more from other work that we have done and other witnesses 
that we have had. And certainly, I think that Vic put it in a 
very good light, the kind of question, I think if you are 
taking a look at what is it that we are going to train our 
soldiers, sailors, airmen, Marines and all, there are all kinds 
of things competing for resources. The question is, where 
does--not just the language but the language combined with the 
cultural awareness kind of training, where does that fit in and 
what form does it take?
    My own experience came more from watching years ago the 
Green Berets training in specific to go into Czechoslovakia and 
how they were trained. It was very, very effective training but 
probably very costly training.
    What is the model? What are the career paths? How does that 
priority stack against basic infantry skills? All those kinds 
of questions, those are all here on the table.
    I thank you for coming. We are looking forward to your 
testimony.
    And, Vic, as far as--I yield back, and you can roll the 
film.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 37.]
    Dr. Snyder. What we are going to show now is just about a 
2- or 3-minute clip, very brief, about a couple of folks. The 
first is from a film, and then some audio called ``The Untold 
True Story of Guy Gabaldon,'' which depicts Marine PFC 
Gabaldon's single-handed success in persuading over 1,500 
Japanese soldiers on Saipan in 1944 to surrender, including--
this is all by himself, solitary. He stumbled into a Japanese 
regimental headquarters and at one time had 800 surrender at 
one time.
    There will be a brief film clip. It will then go blank, but 
you will hear an audio that we lifted from a National Public 
Radio (NPR) story a few months ago. And then you will see a 
clip probably more familiar to you from the Ken Burns film 
about World War II, the War of Senator Inouye.
    Let's go ahead and roll that now. And for those of you who 
can't see any screen, you are welcome to get up and move 
around.
    [Video played.]
    Dr. Snyder. Well, both of those stories are from times many 
years ago, decades ago in our history.
    Today, we are joined by Dr. Richard Brecht, Executive 
Director at the University of Maryland's Center for Advanced 
Study of Language, who has extensive experience in the best 
ways to acquire and sustain language skills; Dr. Amy Zalman, 
who is an expert in how cultural awareness factors into 
successful strategic communications; Dr. Montgomery McFate, who 
has worked to develop a framework for fielding anthropologists 
and other social scientists to support combat brigades and 
other deployed forces; and Dr. Andrew Krepinevich, the 
President of the Center for Strategic and Budgetary 
Assessments, who will discuss the capabilities our future 
military force will require in the area of language skills and 
cultural awareness.
    And shall we begin over here, Dr. Brecht? And what we will 
do, Dr. Brecht, is we are going to put this little light on; 
and it will flash on red at five minutes. I don't want you to 
feel like you are automatically cut off, but I would encourage 
you all to stay as close to that five minutes as we can so that 
members can ask questions and learn from you as the day goes.
    Dr. Snyder. So Dr. Brecht.

STATEMENT OF DR. RICHARD D. BRECHT, EXECUTIVE DIRECTOR, CENTER 
     FOR ADVANCED STUDY OF LANGUAGE, UNIVERSITY OF MARYLAND

    Dr. Brecht. Thank you very much for the opportunity. I 
appreciate that quite a bit.
    I guess my role here is to suggest to you in the very 
broadest terms that the Defense Language Transformation 
Roadmap, which I have studied quite a bit, is on its way to 
building the first U.S.-based globalized workforce in the 
history of this country. It has a long way to go, and there are 
many things to do and to complete, and it has to be sustained. 
But I would say that, basically, we are set out on the right 
path. The question is, what still remains?
    And, in my view, this building of this workforce--if you 
look at my testimony, I spend a long time on a scenario in 
North Africa, in Niger, suggesting that, in 10 or 12 years, 
what a workforce, a military globalized workforce would look 
like, and that workforce basically comprises three strong 
components.
    The first one--and this is the thing that is missing, from 
my point of view, in all the things I have read and studied 
about what the military and the Defense Department is doing--is 
that every member of this globalized civilian and military 
workforce has to be trained in communications competence. The 
first thing people have to know is do they have a language task 
they are facing or a cultural understanding task that they are 
facing? And if they do, do they have the capability to deal 
with it? And if they don't, do they know where to get the 
resources that are actually positioned to be brought to bear? 
And if they get those resources, have they worked in that 
particular task? That is basically the overall global workforce 
capability that is needed.
    After that, you have an inherent and in-house capability of 
people with languages and skills from very low level to very 
high level, and we can talk about which languages those could 
be.
    And the third thing that this workforce has at its 
advantage, it has the ability to outsource, the ability to 
localize, and the ability to reach back.
    Those are the capabilities that are here so that the 
Department of Defense and the military and the Army and the 
Marines and the people on the ground don't have to have the 
full capabilities that a workforce deployed in 130 countries 
basically dealing with probably something on the order of 5,000 
languages and maybe 50,000 dialects has to deal with. And so it 
is this picture that I am trying to present to you.
    How do you build this workforce? If you look at my 
statement to you, it is basically we have to have much better 
recruitment. The emphasis can't only be on training. The 
emphasis has to be a much stronger emphasis on recruitment, and 
that is being dramatically assisted by the roadmap's emphasis 
on reaching out to the K-12 and university system. Because if 
you have a better education system you will have a more 
effective recruitment system.
    The training is, obviously, the DL--Defense Language 
Institute Foreign Language Center will still lead the way with 
the command language programs. But, basically, this training 
has to also, besides language at all levels, include the 
communication skills and the cultural knowledge as well.
    We have also had a lot to do with lifelong training which 
has been made available to a lot of online resources which are 
now available as well.
    The point I guess I am making--and I would love to go into 
details on this--is that you have started down the path and I 
think the path is the right one. This workforce, though, that 
you are building has a lot of capabilities inherent in it and 
it has a lot of capabilities waiting to be deployed if you 
build a system to bring those reach-back capabilities, 
outsourcing and localization capabilities to bear. That is the 
real trick.
    And if you build a system, a database, a net-centric 
operation that will allow them in the field to reach back to 
those capabilities and if you skill the people in the right 
languages and that is based on, if you will, language futures, 
what are the languages you need to put in the right place at 
the right time, we are capable projecting that. You tell us 
what areas you are interested in, and linguists and 
sociolinguists can start talking about what languages you need.
    I will end with the simple fact that, in Africa now, 
because Africans are basically multilingual and everyone, most 
of them, speak 2 or 3 languages, there are 15 core languages in 
Africa which 85 percent of the population speaks. If you divide 
Africa into five zones the way the African Union does, then 
each one of those U.S. Africa Command (AFRICOM) components can 
only have to deal with two or three languages as part of its 
in-house capabilities.
    These things are possible; and my message to you, again, it 
is possible to build that workforce. And I have talked to 
people and they say it is too big a task to do. It is not too 
big a task to do. It takes a much more strategic, 
collaborative, cohesive approach, which I think the academic 
ministry and the military together can build.
    Dr. Snyder. Thank you, Dr. Brecht.
    [The prepared statement of Dr. Brecht can be found in the 
Appendix on page 39.]
    Dr. Snyder. Dr. Zalman.

     STATEMENT OF DR. AMY ZALMAN, POLICY ANALYST, SCIENCE 
         APPLICATIONS INTERNATIONAL CORPORATION (SAIC)

    Dr. Zalman. I hope you will forgive me if I read my 
remarks. They are directed primarily toward the long term and 
to the training and education component of cultural awareness.
    Chairman Snyder and members of the subcommittee, thank you 
for the opportunity to discuss the future direction of language 
and cultural awareness in the U.S. military. My remarks are 
divided into three parts: the challenge, the issue of 
transformation, and a few potential action routes.
    The U.S. military confronts particular challenges with 
respect to cross-cultural awareness. The majority of deployed 
forces rotate from one distinct linguistic and cultural arena 
to another with relative frequency. It would be implausible for 
all regular forces to become area or linguistic experts in one 
region, let alone several.
    Second, warfighters lack the luxury of time to reflect on 
or learn organically from their surroundings. They may find 
themselves thrust into situations in which they must make 
decisions rapidly.
    To make matters more complex, members of the 21st century 
military are likely to find themselves in situations other than 
war and engaged with civilians. These conditions suggest a 
paradox. The military at all levels has a vital need for 
cultural awareness, yet these same conditions constrain the 
practical ability of many military members to acquire it.
    Moreover, the current turn of events arguably has distorted 
the path the DOD may take to forge a long-term cultural 
awareness strategy. I might suggest that a preoccupation with 
the September 11, 2001, attacks as a point of historic 
departure and the subsequent focus on Islamic societies has led 
to a habit of confusing knowledge of particular cultures, such 
as Afghan cultures, with cultural awareness in a more 
comprehensive sense. This habit can be found within and beyond 
the military.
    The military has tended to define cultural awareness as 
facts about other cultures, especially those that appear on 
their face to be least familiar. That is, of course, a 
simplification. However, because regular forces cannot be 
expected to accumulate nor process nearly enough information to 
make this definition useful, another framework is required.
    Force transformation suggests itself. This subcommittee has 
already revised the existing paradigm by incorporating cultural 
and linguistic awareness into the broader concept of force 
transformation. The transformation framework offers a 
productive conceptual vehicle for the defense community to 
elaborate what it means to have a culturally aware military.
    The absence of cultural and linguistic awareness from even 
recent statements on transformation indicates there is work to 
be done. The 2003 document, Military Transformation, calls for 
processes to enable innovation and adaptability, arguing that 
if we do not transform, our enemies will surely find new ways 
to attack us. Despite the claim that no aspect of defense 
should be left untouched if we are to maintain a competitive 
advantage in the information age, the cultural aspect of 
defense is left untouched.
    Transformation's key concepts align well with those of 
cultural awareness. The DOD defines transformation as a process 
that changes--pardon me--that shapes the changing nature of 
military competition and cooperation through new combinations 
of concepts, capabilities, people and organizations. This 
umbrella concept could easily comprehend a parallel process to 
shape the changing role of cultural interaction and cultural 
competence in military endeavors and to prepare for that role 
through new combinations of concepts, capabilities, people and 
organizations.
    The directive to enable innovation and adaptability is 
perfectly or at least well attuned with the 21st century 
cultural awareness paradigm. In this case however, it is 
people, members of the military, from regular forces to their 
top leadership, who must be enabled to innovate and adapt. To 
that end, a new paradigm will correspond to the operational 
landscape where human communities, cultures, are also 
innovating and adapting to new technological, social, material 
and other realities of this millennium. Culture, in a new 
paradigm, will be seen as an element of human interaction and 
perhaps not only as something out there.
    In the transformation paradigm, although a member of the 
military may be called on to deploy in three different areas in 
as many years, they will recognize in all three that they must 
be watchful for their own and their interlocutor's habits of 
interaction. They will have enough elementary knowledge and 
language to enter into interactions, and they will have 
training that gives them the cognitive tools to innovate, 
adapt, and learn more or perhaps reach back as that interaction 
deepens. They will not be allowed by responsible leadership to 
deploy culturally unarmed.
    I have three suggestions, which I won't elaborate here, 
that may be followed immediately. One is to develop a cultural 
and linguistic awareness transformation strategy, a top-level 
document. Another is to conduct a cultural awareness training 
and education audit to assess capabilities now against a 
transformation set of goals. And the third is to design and 
test a requisite first layer of cultural awareness learning 
that would be required of all military members, although 
perhaps in slightly different ways in the future.
    Thank you again for this opportunity.
    Dr. Snyder. Thank you, Dr. Zalman.
    [The prepared statement of Dr. Zalman can be found in the 
Appendix on page 86.]
    Dr. Snyder. Dr. McFate.

   STATEMENT OF DR. MONTGOMERY MCFATE, SENIOR SOCIAL SCIENCE 
  ADVISOR, JOINT ADVANCED WARFIGHTING DIVISION, INSTITUTE FOR 
                        DEFENSE ANALYSES

    Dr. McFate. Mr. Chairman and ranking members of the 
Oversight and Investigations Subcommittee of the House Armed 
Services Committee, thank you very much for this opportunity to 
testify on the importance of sociocultural knowledge to U.S. 
military personnel in Afghanistan and Iraq.
    I am appearing today in my personal capacity vice my 
official capacity. As such, my comments should not be construed 
as official Department of Defense or U.S. Army policy.
    Sociocultural knowledge is a critical enabler for stability 
operations in irregular warfare. Stability and reconstruction 
operations pose a tremendous challenge to the U.S. Government 
because they require different skills, knowledge, training and 
coordination than those tasks commonly required by major combat 
operations.
    Unlike major combat operations, stability and 
reconstruction operations must be conducted among and with the 
support of the indigenous civilian population. Working 
effectively with local civilians in order to rebuild a country 
requires knowledge of how the society is organized, who has 
power, what their values and beliefs are, and how they 
interpret their own history, among other things.
    Experiences in Iraq and Afghanistan over the past few years 
have demonstrated the benefits of having this knowledge and the 
drawbacks of not having it in terms of lives, money and mission 
success.
    A critical question is how U.S. military personnel should 
acquire this knowledge. There are multiple possible means, to 
include education, training, advisors and databases.
    An additional question concerns the optimal amount of 
sociocultural knowledge that U.S. military personnel should 
have and the trade-offs in terms of time, money and manpower 
that acquiring this knowledge entails. After all, making every 
soldier and Marine into a social scientist is neither feasible 
nor desirable.
    Professional military education is a long-term solution to 
ensuring that the U.S. military has the requisite level of 
knowledge about foreign cultures and societies. Lessons 
learned, insight gained and skills acquired in a classroom 
influence how problems are conceived, solutions are developed 
and decisions made in subsequent professional positions.
    Most professional military education institutions in the 
United States face a number of challenges right now:
    First, a lack of qualitative social scientists within the 
curricula, inadequate attention to developing intercultural and 
cognitive skills, et cetera.
    Second, recognizing that sociocultural knowledge has 
improved the effectiveness of operations in Iraq and 
Afghanistan, all branches of the military have now began 
cultural pre-deployment training programs. Creating training 
programs was initially a ``bottom-up'' movement in response to 
lessons learned, rather than a ``top-down'' push resulting from 
official Department of Defense requirements. As a result of 
this process, cultural training varies widely in content, 
structure and time allotted. However, the DOD, Army and other 
military services are now developing comprehensive cultural and 
language strategies.
    Third, collecting sociocultural information in a 
computerized database is another means to provide U.S. forces 
with information about the local population in their area of 
operations. When Operation Iraqi Freedom began, there was no 
readymade repository for the collective knowledge about a given 
local area. Because brigades had no system to store, sort, 
organize or effectively transfer this information, much of it 
was lost during transfer of authority between units. 
Recognizing this issue, the DOD made an effort to develop such 
a database in 2004.
    Subsequently, in field testing this database, we discovered 
that commanders and their staffs had little time available to 
use such a tool and little inclination to do so. What 
commanders actually wanted was an advisory staff element that 
would be attached 24/7 to the brigade who could develop, use 
and maintain such a database.
    Fourth, operating forces can also acquire the requisite 
knowledge about the local population through the use of 
cultural advisors. At the present time, the U.S. Army's human 
terrain system is probably the best-known example of such an 
advisor program, although it is not the first and it is not the 
only one. Colonel Schweitzer testified on April 24 to another 
House subcommittee on the same issue.
    To recap, the Human Terrain System (HTS) mission is to 
provide commanders in the field with relevant sociocultural 
understanding in order to assist them in developing courses of 
action that are better harmonized with the interests of the 
local population and which entail less lethal force. This 
mission is achieved through five- to eight-person teams of 
military and reservist personnel who are attached on orders to 
the military unit that they support.
    The team does not rotate out with the brigade at the end of 
their tour but remains in place. For example, the human terrain 
team in Taji will remain in Taji as long as U.S. forces do. 
Individual team members are rotated out on a staggered basis, 
ensuring the continuity of sociocultural knowledge and enabling 
each brigade to start their tour at a higher place on the 
learning curve.
    In addition, HTS supports these teams through a research 
reach-back center and a network of subject matter experts who 
are able to conduct research and analysis to meet the brigade 
commander and staff's requirements.
    In conclusion, solutions to the military's immediate 
sociocultural knowledge requirement have been ad hoc, bottom up 
and developed by the respective military services in response 
to their own perceived needs. For any of these solutions to be 
sustainable beyond the immediate conflicts, they should be 
rationalized, coordinated and institutionalized. Otherwise, the 
capabilities will be lost, as happened after the Vietnam war, 
and will have to be rebuilt yet again.
    Thank you for this opportunity to comment, and I look 
forward to your questions.
    Dr. Snyder. Thank you, Dr. McFate.
    [The prepared statement of Dr. McFate can be found in the 
Appendix on page 95.]
    Dr. Snyder. Dr. Krepinevich.

STATEMENT OF DR. ANDREW F. KREPINEVICH, JR., PRESIDENT, CENTER 
            FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman.
    The need for cultural awareness and language competence is 
really greatest in the area of irregular warfare, whether we 
call it counterinsurgency, foreign internal defense or the 
latest buzz phrase: stability, security, transition and 
reconstruction operations.
    In these kind of conflicts, the population is really the 
center of gravity. Hence, the phrase, trying to win the hearts 
and minds to mobilize the population to your side. Very 
difficult to do that if you can't operate on what some people 
in the military call complex cultural terrain.
    So one of the critical questions is, is irregular warfare 
going to be an important staple of the future in terms of what 
kind of challenges our military has to confront?
    I have talked to one general in particular who told me, 
look, the Army's had its hand on the stove here for about five 
years. Once we finally leave Iraq and Afghanistan, we are not 
going to do this for another 30 years. The American people 
won't stand for it.
    That may be the case, but I think there are powerful trends 
arguing the opposite. And there is also an old Army saying that 
the enemy gets a vote in terms of what kind of conflict, what 
kind of challenge he presents.
    If you look at trends, it is hard to see how we are not 
going to be challenged by an increasingly what I would call 
disordered world. If you look at demographic trends throughout 
Africa, the Middle East, Central and South Asia, also Central 
America, parts of northwest Latin America, there is a huge 
bulge, a huge percentage of the population under the age of 15. 
In places like Nigeria, that percentage is over 40 percent of 
the entire population.
    What we are going to see in the coming years is this rising 
youth bulge reach the age of maturity where they have to be 
absorbed into that particular country or region's economy. Yet, 
in many of these areas, you have this rising large number of 
young people who generally are undereducated and uneducated, 
who are going to be expected to compete not in the local 
economy but in a global economy, not just against Nigerians or 
Colombians but also Indonesians, Indians, South Koreans and so 
on, that are unfortunate enough for the most part to live in 
countries where the governments are corrupt or incompetent or, 
typically, both. And this, again, presents a situation where 
you are going to have a rising number of highly frustrated 
people.
    There is scholarship that indicates in these kinds of 
situations you are looking at raised levels of internal 
instability. And so there is motive here. There is motive to 
create higher levels of disruption.
    When you look at the communications revolution, you will 
add to this the fact that more and more people, even in the 
developing parts of the world, understand just how badly off 
they are relative to the rest of the world. The fact that they 
could be more easily proselytized, organized, recruited, 
organized and trained and even equipped.
    If you look at financial transfers, if you look at the 
kinds of means that are falling into the hands of these groups, 
over a decade ago, Aum Shinrikyo in Japan developing nerve 
agents and chemical weapons, the Revolutionary Armed Forces of 
Colombia (FARC) looking for radiological bombs, al Qaeda 
looking for nuclear weapons, and Hezbollah practicing in 2006 a 
kind of hybrid war using rockets, artillery, mortars, 
munitions, unmanned aerial vehicles. And not only the means but 
a track record of forcing the U.S. out of Lebanon in 1983; 
Somalia, 1993; the Soviets in Afghanistan in 1989; and the 
Israelis losing the second Lebanon war in 2006.
    So means, motive and a track record of success.
    If you look at what that means in terms of a requirement 
coming out of the 2006 Quadrennial Defense Review (QDR), you 
see in terms of the way the Army, for example, is structuring 
its brigade formations with the need for a surge capability, 
the ability to surge brigades forward and keep them on station 
for a protracted period of time, for advisors, for trainers as 
part the QDR's admonition that the military needs to begin to 
think of building partner capacity on an enduring basis as a 
key part of our defense strategy.
    And not just that but also the need for U.S. forces and 
capabilities in terms of humanitarian relief operations and 
what the military calls phase zero operations, trying to engage 
in prophylactic effects like we have in places like the 
Philippines to keep nasty situations from turning worse.
    So, again, a strong need. And I would say if we are talking 
about trade-offs, I would be happy to discuss this in detail.
    But I think, in the area of conventional war capabilities, 
nobody wants to build the next tank Army to take on the 
Americans. Nobody wants to build the next combined arms 
Republican Guard to take on the American military. They are 
gravitating toward weapons of mass destruction and, as I said, 
irregular warfare.
    So, in summary, I think irregular warfare, whether we look 
it or not, is here is stay. I don't think it's a fad or a run-
off. I think it is a trend. I think it's going to increase in 
importance. I think the challenges are going to become more 
difficult. And the key to executing this well, the key to 
operating well on complex human terrain--one of the keys at 
least--is going to be cultural awareness and language 
proficiency.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 104.]
    Dr. Snyder. Thank you, Dr. Krepinevich.
    We will go ahead and start the five-minute clock.
    I want to ask my first question. It is just very, I guess, 
straightforward and not very subtle.
    But it is my understanding that the foreign language 
proficiency bonus is paid to a little over 17,000 service 
members. So that is about 1.2 percent of DOD personnel, which 
totals about $1.3 million.
    Now, of that number, probably a significant number of those 
are senior folks that are in intelligence, so they're not going 
to be the people that are out doing street patrols and, you 
know, training foreign militaries. My question is, what should 
that percentage look like? Should we have 20 percent of our 
folks getting the foreign language proficiency bonus? Should it 
be 10 percent?
    Now, I suspect every one of you are going to hedge on that, 
but I want to hear the hedges. What should our specific goal 
be? How do we measure it? How are we going to arrive what that 
specific goal would be?
    Andy, why don't we start with you this time and let's go 
back the other way.
    Dr. Krepinevich. Thank you, Mr. Chairman.
    I think a lot of it has to do--as long as we are hedging--
to do with how you see your forces being employed. So, for 
example, if you look at the Marines right now, they are trying 
to organize themselves around units that can really break down 
from the regimental level down to battalion and even company 
and platoon level. And one of the examples they give is that a 
battalion could have multiple deployments in different parts of 
Africa performing different kinds of missions in different 
locales. If that is the case, the more you break these units 
down--and a lot of this kind of conflict environment or 
operational environment is a series of microclimates--then that 
is going to drive up the needs for language proficiency and 
certainly cultural awareness.
    If you are taking more of an outsourcing approach--and I am 
not an expert this, but my understanding is the Army is looking 
at these kinds of human terrain teams and operating in larger 
units. Then, if that is the case, you might be able to get away 
with a lower level of language proficiency.
    But, again, I think the trade space here isn't between 
necessarily how you organize. The trade space here really is 
the ability to conduct this mission and be very flexible and 
adaptable. So the Marines could scale up to perform Army-like 
operations and the Army could break down to conduct Marine-
style operations or small unit operations. The trade space 
really is between that and what I think is some of the high-
density, low-demand capability, which I think has to do more 
with conventional or traditional kinds of military operations.
    Dr. Snyder. Dr. McFate.
    Dr. McFate. I once had a trip down to Fort Bragg which was 
very interesting. I went to go visit with Army Special Forces, 
and someone down there explained to me that, in terms of how 
they assign people to learn languages and what languages they 
choose to learn, that to some degree it's always best guess and 
it always requires a little bit of crystal ball gazing. Because 
you are trying to make an assessment about what's going to be 
needed by the military in the future, and it is hard to know 
exactly what that is going to be.
    Even if you had 25 or 30 percent of general purpose forces 
collecting the language incentive bonus, you still would not 
end up with a comprehensive coverage of all the languages in 
the world that might need to be spoken, given contingency 
operations, et cetera.
    So I think what's important for the committee to consider 
is what are the other resources out there that can be brought 
to bear to allow the military to work effectively in 
environments where you may find that you don't have anybody or 
you have very few people who do speak the local languages. And 
I believe that Dr. Brecht could probably speak better to that 
than I can.
    Dr. Snyder. Dr. Zalman.
    Dr. Zalman. I would also work backwards from needs. I would 
hope that everybody who--I can't speak to the military levels--
but that everybody who is to deploy to a particular area has 
minimal language competence and the ability to discern when 
they need some greater competence. They need to be able to 
enter into an interaction in a local scenario, but I don't 
think that they need to have--that everybody needs to be a 
linguist.
    Dr. Snyder. And I agree with that. The issue is I don't 
think we are satisfied where we are today, but we don't know 
what the end point is.
    Dr. Brecht.
    Dr. Brecht. That is a really tough question. Because, 
basically, as I see it from my--I mean, the last time I was in 
the military was in 1963, so my perspective may be a little 
off. But the mission has changed dramatically, and what the 
military language requirements were in the 1980's were very 
high-level skills of a pretty elite cadre, mostly for intel 
purposes and so on. And in the last 20 years, because of 
irregular warfare and everything we have done, that base has 
spread immensely.
    Now, we still--so trying to get a percentage on that is 
extremely difficult. It is still difficult to acquire those 
three level on a scale of zero to five takes an immense 
investment, and so rewarding the people who stay with that--
basically, it takes years and years of intense language study 
and exposure in the country to reach that level. So 
incentivizing those people is really important.
    As we go down to the lower levels, where you have a much 
broader population and having to do many more jobs which we 
have never calibrated on that scale basically of pay, that is a 
real different kind of task.
    And if I were sending people over--and I am a language 
person, so my language colleagues are going to be offended at 
this--but the first thing people need is what I talk about, is 
they have to recognize when they are in a communications 
dilemma or a cultural awareness issue. They have to be 
culturally sensitive and aware of the communication task they 
are facing and where to get the resources. That is the first 
thing they need.
    The second thing they need is some experience in that 
culture so that they don't do some things that are really 
damaging. But, in that problem, it's always sometimes a little 
culture that can be a dangerous thing.
    And then the third thing they need is the language 
capability.
    So we are tying everything to do with language at this 
stage. We are tying--kind of an older system that was based on 
fairly high-level, narrow cadres and very high-level skills. 
And what it appears to me you are doing is changing the 
paradigm and asking a question that is extremely hard to get 
at. Because you can't separate the culture and the language at 
those levels, and you can't separate those tasks at those 
levels.
    So is that enough hedging?
    Dr. Snyder. That is pretty good hedging. We don't want to 
separate it at all.
    Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    First of all, Dr. Krepinevich, most civilian organizations 
or big companies, there is a promotion path. Sometimes you have 
to be an accounting kind of guy, a bean counter to get to be 
president. Other times, you are a line operating person or 
maybe you are a lawyer or whatever. I used to work for IBM. It 
was marketing. In the military, is there a certain pattern for 
promotion for people who want to move up the line? Are there 
certain places that you have to touch base?
    Dr. Krepinevich. I will speak to the Army in particular, 
because that is the service I am most familiar with. Certainly 
there are a series of hoops you have to jump through, say, if 
you want to become a brigade commander, a colonel.
    Recently, I received a briefing from the Army. They took a 
look at 20 people who had recently been selected for brigade 
command. And the Army has this phrase, officers should be 
pentathletes. They should be capable in many different skills. 
Well, in looking at this matrix of assignments of these 15 
different officers, overwhelmingly I think out of the matrix 
only 3 slots weren't directly related to line troop 
assignments, field assignments. And of course, you want to be 
proficient in combat. That is what these assignments were 
oriented on. But it certainly didn't lead to brigade commanders 
who were pentathletes.
    If you look at the Army's foreign area officer program, 
typically not an area to get into if you want to get promoted. 
You are not going to be the future Chief of Staff of the Army. 
You probably won't even make general if you pursue that path.
    Mr. Akin. Are you saying that the people who were being 
promoted were not really people who were on the front lines or 
line officers? They tended to be more staff kinds of people?
    Dr. Krepinevich. No. What I am saying is people who are 
promoted are people who spend most--as much time as possible 
out with the field Army. That means either in troop assignments 
as a commander, platoon leader, company commander, battalion 
commander or in troop, staff assignments such as a battalion 
operations officer. Those are the ones that get you the 
greatest credit in terms of future advancement. And you can go 
all the way back to the Vietnam war, and I can tell you stories 
if you are interested.
    But that has been the theme and the trend for a very long 
time now in the Army, and whether the Army can change that 
culture I don't know. There is a lot of institutional 
credibility built up in terms of the field Army career path.
    One of the things that I think is very interesting for the 
Army in particular at this point in time is I think as an 
institution it really is at a crossroads. Because if you asked 
the Army in the 20th century what kind of an Army do we need, 
the first half of the century is we need an Army to beat the 
Germans. The Germans fought us like we fought them. The second 
half is we need an army to beat the Soviets. They fought us 
like we fought them.
    Nobody wants to fight us that way anymore. And so when you 
ask the question, what kind of an Army and you look at where 
the trend lines are going, it really is an Army more and more 
focused on irregular warfare.
    Mr. Akin. I appreciate your setting the background and the 
tone as to how that works.
    So now, taking what you are saying where the Army is going, 
does that mean that the higher-level leaders should be very 
effective in terms of communications in cultural and language? 
Or does that say those people maybe should be operating at a 
lower level, and you have the people who are what the military 
calls the pointy end of the spear, they are the ones that don't 
necessarily have to have language. Or do you think it should be 
spread up and down the chain of command?
    Dr. Krepinevich. Let me give you an alternative career path 
for an Army general.
    You come in. You are assigned to an Army brigade that has a 
high capability to deal with irregular warfare operations. You 
are engaged in a lot of phase zero operations. You may be in 
sub-Saharan Africa under General Ward, and you are doing sort 
of reconstruction operations, security assistance these sorts 
of things.
    Eventually, you go off to graduate school. You go off to 
graduate school in an area studies program. Your duty 
assignment or your utilization tour after that is you go to 
sub-Saharan Africa for a couple of years in civilian clothes, 
and you wander around. And you come back in two years, and your 
performance is what you wrote up of what you learned being 
Lawrence of Arabia for two years.
    Then maybe you go on to command that brigade that you were 
in that had units operating in terms of security assistance, 
training, advising in sub-Saharan Africa. Eventually, you might 
command a military assistance group that is responsible for 
several brigades as a general officer operating and supporting 
sub-Saharan African militaries and societies and so on. And 
eventually you might be the next General Kip Ward, a four-star 
who is head of AFRICOM.
    And so you have built that competence over time. It is a 
mix of what I would call field and warfighting competence but 
also that other competence that becomes critical when the 
population becomes the center of gravity.
    And again, if you look at the officers who have been quite 
successful in Iraq and Afghanistan, people like Barno and 
Corelli and Petraeus and so on, they were sent off to serious 
graduate schools to get serious grad school educations and 
developed an understanding for the fact that warfare can be a 
lot more than just kinetics, as General Corelli says. There are 
these other aspects.
    Mr. Akin. What you painted is a very geocentric kind of 
career path, though, to a certain degree.
    Dr. Krepinevich. That is right. You would have to--and, 
again, you would have to take into account the fact that you 
could pick the wrong geographic area. And then you might have 
to consider what I think the Army sometimes calls cross-
leveling. So if I had two brigades operating in sub-Saharan 
Africa and all of a sudden I need eight, I may have to transfer 
some of the staff and elements of those two brigades to sort of 
even things out among the eight so that I don't have great 
competence in two brigades and no competence in the six others.
    And, again, there is no perfect answer, but you can 
position yourself so that when you are surprised you could 
adapt more critically.
    Mr. Akin. Thank you.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    Following up on the question Mr. Akin asked about 
promotion, I guess it was 56 years ago I left government 
service as a GS-15, which was the highest grade, unless you 
were at that time PL-313, which was super grade. I guess they 
have changed that since.
    And nobody reported to me. Nobody. I was all alone. And 
that is because I was a scientist and I didn't need to have 49 
or 450 people reporting to me to be a GS-15.
    Do we have a similar thing in the military to reward people 
who are really, really good at something? And what we are 
talking about today could be an absolutely invaluable asset, 
somebody who is really, really good at knowing the language and 
knowing the culture? Can we reward them the way I was rewarded, 
without having a whole Army report to me?
    Dr. Krepinevich. Is that a question for me, Congressman?
    Mr. Bartlett. Or whoever, yeah. Or do they remain buck 
private forever because they don't have anybody to report to?
    Dr. Krepinevich. My understanding--and I am not an expert 
on the promotion system--but it has been quite centralized over 
the years and so there is limited opportunity for sort of spot 
promotions, as they used to call it, as you had in World War II 
or even back in the 1950's. There are still stories about 
General LeMay, when he commanded the Strategic Air Command, 
promoting people on the spot and also firing people on the 
spot. So that is much more, I think, limited today.
    And, also, I think there is limited ability for sort of 
horizontal accession into the military. In other words, in the 
medical field, medical doctors, I believe still come in at a 
higher rank reflective of their expertise and skill. But if you 
are talking about, you know, somebody who comes in off the 
street and enlists and has expert knowledge of Farsi, I don't 
think they start out anywhere ahead of anybody else that comes 
in off the street and enlists in the military.
    Mr. Bartlett. Recognizing how valuable those skills could 
be, shouldn't we have a way of rewarding them like we do 
doctors?
    Dr. Krepinevich. Well, yeah. I think there is a number of 
opportunities here. One is, we are blessed more than the other 
great powers of the world by the fact that we have a very 
diverse population. Just going around Washington you can find 
people who speak Spanish, Persian, Afghan, Pakistani, 
Vietnamese. I mean, just get in a taxi cab. And we do make a 
priority of recruiting these kind of people. We certainly set 
certain--we want people with these kinds of education 
backgrounds and these kinds of physical characteristics and so 
on. We have to begin to orient our recruitment efforts on 
trying to recruit people who maybe have English as a second 
language who live in this country.
    We have allies. I was at a conference last year, a 
conference of European armies, and I found myself sitting next 
to the French Army Chief of Staff. And he says to me, I want to 
meet General Casey. Do you know General Casey? I said, I know 
General Casey, but General Casey doesn't know me. But he wanted 
to talk to General Casey about AFRICOM and start to say, look, 
we have cultural competence in certain parts of Africa. We know 
Morocco. We know West Africa. We have cultural terrain 
competence in those areas, language competence, so let's sit 
down and work together as allies.
    The Turks, you know, another long-standing ally of the 
United States. I see us having to rely a lot more on allies. 
And if you look at allies that we have in the developing world 
and if you look at our allies who were colonial powers at one 
time, they may not be able to send 200,000 troops someplace, 
but they do have an advantage over us in terms of understanding 
cultural terrain and having language facility in certain 
important parts of the world that we don't.
    Dr. Brecht. Can I just say, there was a study of 
corporate--Fortune 500 companies about 8 years ago about what 
qualifications they want in their managers. And the first 
qualification that the survey did--the University of Washington 
also did it. They wanted, first, core competency in their 
skill, in their specialty. The second is they wanted good 
English. The third is they wanted experience living abroad. The 
fourth one was language capabilities, for the simple reason 
they didn't want to pay for language capabilities in Japanese 
at a high level when they are moving someone to Santiago, 
Chile, in the next--after two years. And so even corporate 
America does not have what you are asking for, a focus on a 
specialty in that language.
    The high-level managers in the Officer Corps, they want 
people who adapt to any circumstance in any part of the world; 
and that is what we are seeing from the corporate sector.
    Dr. Zalman. May I add two brief comments?
    One is that, over the long term, as the paradigm of the 
current military shifts so that cultural awareness and language 
ability to some extent are not seen as exceptional or as needed 
in this situation or only in that situation, the issue of 
reward for most would become more of a moot one, I would think.
    The second is that I would suggest that, at the lower 
levels, people from heritage language communities, non-native, 
non-English speakers aren't necessarily more culturally aware. 
They will bring their biases, whatever they are, just as 
anybody else will, to their perception of the situation and 
they will enact them or communicate them. So they are in as 
much need as anyone else, I would think, of a sense of 
awareness that they are in a cultural situation.
    Dr. Snyder. Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    I guess this mike is on.
    You know, it seems that everybody agrees that we need more 
of this type training that is cultural awareness and language 
training. But the big question in my mind is how much is 
appropriate for the military and in what career fields and in 
what rank should it be concentrated. We had touched on that a 
little bit. Or should we rely on civilians and contractors? 
Would this be an area maybe where a civilian reserve corps 
could be an asset?
    Dr. Brecht, you just mentioned about corporate America and 
multinational companies that don't seem to reward language 
expertise because, you know, they may be in one area for two 
years and then go to another one and they're not expert in this 
particular language. And the same thing I think Dr. Zalman 
maybe referenced in regard to the military.
    But to my way of thinking, that possibly it is time for a 
change in that way of thinking and that concept, that maybe the 
multinational corporations would do very well to recruit and 
reward individuals that have the cultural awareness and 
language expertise and send them to China if that is the 
appropriate language and keep them there for a while and not 
move them in two years and get the full bang for the buck out 
of these people. And the same thing with the military.
    I know, back in my home State, North Georgia College and 
State University trains their cadets in Chinese language to 
better prepare them for their military careers, and they are 
trying to and will with our help be starting an Arabic language 
curriculum, too.
    So, in the future, I guess my question is, do you believe--
this is a specific question--that in order to be promoted in 
the military, knowledge of a foreign language will ultimately 
be a prerequisite? And how is the Defense Department partnering 
with universities to help develop these skills and how can we 
improve in this area?
    Dr. Gingrey. Any of you, of course.
    Dr. Brecht. I think your point is exactly right. Corporate 
America uses workarounds. They basically use localized talent, 
and they outsource and they do everything else except bring in 
an in-house capability in language and culture. That is 
characteristic of corporate America. And that is because they 
can. You can't localize warfighting, you can't localize intel, 
and you can't outsource that kind of thing the way corporate 
America does. So corporate America is a very bad example.
    And, in this case, I think the Department of Defense is 
leading the way--and I will come back to the term I have used--
toward a truly globalized workforce, because you can't 
localize, you can't outsource. And how to build in that 
capability is--and one of the things that I am particularly 
admiring of the road map is that basically it has incentives, 
it has requirements, it has management structure, and it sets 
the tone in leadership, that you can't get promoted 
presumably--officers have to have this language capability. 
They have to have the experience of engaging other cultures. 
And I believe any military that we have in the future, the 
leadership has to have that capability. And they are not 
looking at global America for that.
    Dr. Gingrey. Dr. Zalman or Dr. Krepinevich, any of the 
panel, I would be glad to have you respond.
    Dr. Krepinevich. Just a couple of quick observations.
    One is I don't think certainly 100 percent of the officer 
corps has to be cultural and language experts, but I do think 
it is possible. And I defer to my colleagues here. My 
understanding is it is not terribly difficult to get a certain 
level of cultural familiarity and some basic language training. 
And if you have time, these units, on a rotation basis, they 
are supposed to have at least about a year to train up before 
they go on their next deployment. They typically are supposed 
to know where they are going. That certainly provides an 
opportunity to do those sorts of things.
    I would say in terms of outsourcing language support as 
opposed to cultural support, if the military is doing what is 
called for, at least in terms of the QDR and some of the other 
public statements, which is building partner capacity and 
engaging in phase-zero prophylactic kinds of operations--and 
this is a steady state. This isn't a surge capability. This is 
a capability you need because the military, particularly the 
Army and to a lesser extent the Marine Corps, the Navy and to 
some extent the Air Force engage in this all the time.
    And then finally you say knowledge of a foreign language. I 
am not quite sure what level of capacity you are talking about.
    Dr. Gingrey. Well, I am talking about speaking ability.
    Dr. Krepinevich. The familiarity with a foreign language, 
again, it has been a long time since I was in high school or 
even college, but you used to have to take four years of a 
foreign language in high school and at least a few years in 
college. And I think there is a lot to criticize about our K-
to-12 education system and some other aspects of even our 
college.
    Dr. Gingrey. Well, we don't have time to get into all of 
that, and I have already expended my five minutes, but let me 
just say that I believe--and maybe you alluded to this or one 
of the other panelists--in regard to rewarding these skills of 
all this time that it takes to require an ability to speak and 
understand a language, maybe it should be rewarded, just like a 
higher ranking given to a physician who is coming in and has a 
skill to provide for health care.
    Thank you.
    Dr. Snyder. Mrs. Davis for five minutes, and then we will 
go break for votes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I am sorry I missed your testimony, but I wanted to maybe 
just ask a few general questions, and you can certainly let me 
know whether you have already answered them.
    But also share just very briefly, my community is San 
Diego, and San Diego State University has embarked on a program 
with the ROTC, and they are training young people in that 
program in three major languages.
    The beauty of that--and I met with them just the other 
day--is that, instead of taking other courses in the summer, 
that is all they are doing. So they are not immersed in the 
same way that--I will mention another program that the Marines 
from Camp Pendleton are involved in, but at least that is all 
that is on their plate. And I think that has made a tremendous 
difference. In fact, several people mentioned that in two weeks 
they basically finished a semester, and they could really 
benefit from that experience. And so that is something to think 
about.
    And I certainly want to follow up on that and see where, 
within the ROTC programs, we can do more of that. The young 
people are being paid to be part of that program; that is an 
incentive. But they also feel that they are getting valuable 
skills, and there may be a role there.
    The other piece of that with Camp Pendleton is we are 
fortunate that we have Iraqis in San Diego, and so they are 
immersing these young people in the Iraqi community. They are 
not living with families, which I think should be a good next 
step actually, but they are going to meals, they are in the 
community, they are really trying to get a better feel. And I 
think that is critical.
    And when I have asked them, well, what should we be giving 
up? You know, when we are preparing people for deployment, 
obviously there are a lot of things that need to be learned in 
addition to all the basic training and the other skills that 
people have. And they basically said, you know, there are 
plenty of people who can be identified who don't need to be 
doing everything that is going on. So pick the skills that you 
need, and relieve those people of their obligations to be there 
with their unit through that entire period and give them this 
kind of an experience.
    So I just throw that out. You know, is that the kind of 
advice you might give someone if they are thinking about these 
kinds of programs? Or is there something else that is critical 
in doing that? Can we find the time, really, to give people? I 
think it is really the--having that kind of time to study is 
remarkable, if we can do that.
    Dr. Zalman. Well, as you were speaking, and I was 
remembering the question that was just asked previously, I 
mean, this seems to me a very good idea, because he raised for 
me the reminder that any language training to a certain depth, 
let's say three years, every day--I mean, languages differ, but 
from a serious endeavor, people tend to come out knowing about 
language learning in general and about the culture that they 
have been immersed in and about its history, because it is 
embedded in the language.
    And that, even if you go somewhere else where you need to 
speak a different language, is a portable kind of knowledge, in 
a sense, a portable skill. So you can go from one linguistic 
environment to another but with a greater sense of self-
awareness of what people are doing when they are speaking a 
language.
    So if that opportunity were made available, I would think 
people would want to take advantage of it for that reason. It 
compounds the benefit.
    Dr. McFate. Just to follow up on this, it is sometimes said 
that General Petraeus is the best social scientist in Iraq. And 
I think that there is actually a lot of truth in that. And that 
can be said about a number of other senior leaders, as well.
    And I think if you look at the life experience and at the 
professional experience of people like General Corelli and 
General Petraeus, they didn't have time in their otherwise very 
busy military careers to engage in higher education at civilian 
institutions. And I think that that opportunity is particularly 
important.
    To follow up on what Dr. Zalman was just saying, I think it 
is very important to look at the ability of the military to 
acquire general cross-cultural communication skills and general 
cultural competency, specific regional knowledge and specific 
language competency. These are two different approaches to the 
same goal.
    And I think that there is a definite benefit in terms of 
thinking about this in general skills terms, because this is 
transferrable and it is portable, so you don't get a whole 
bunch of people who have been trained to go to China and they 
all speak beautiful Cantonese or Mandarin but we are going to 
actually send them instead to Bosnia. If they have general 
skills and they have general knowledge about language 
acquisition, that knowledge and that language skill, it doesn't 
rot on the vine, it can be transferred.
    Dr. Brecht. Could I underline your question about the ROTC? 
As I understand, these grants now are going to ROTC programs 
around the country. One of the critical things they should do 
is send them abroad for an immersion in country. That is what 
they should do in the summer. It would be a terrific thing to 
get them in the country that is not a lot of money. And these 
young future officers would profit immensely simply by exposure 
to that other culture, but real exposure and immersion in that 
authentic environment.
    Dr. Snyder. We need to break for votes. And if you need 
anything, the staff will be glad to help you. And we will come 
back after the votes, two votes.
    [Recess.]
    Dr. Snyder. I resisted the temptation, Dr. Krepinevich, to 
call you to the table just to show off that I could pronounce 
your name. See, I went ahead and did it anyway.
    We are going to go ahead and start. Mr. Akin will not be 
able to return, which gives me free rein here until we have 
another member come.
    I wanted to ask, so far, probably justifiably so, we have 
been pretty squishy. But I think that is an okay thing. I don't 
fault you for it. I think we are just squishy as a Nation on 
what we think our goals are to be, with regard to foreign 
language skills and cultural awareness. So, I want to kind of 
poke at it a bit around the edges.
    Maybe the first thing I would get at is the video that we 
showed of Mr. Gabaldon and Senator Inouye, with the contrast 
between a person who had not only foreign language skills, Dr. 
Zalman, but getting to your point in your thing, I think it 
didn't come out in that video, but how Mr. Gabaldon learned his 
skills was he had Japanese friends as a teenager, and he 
traveled with them. I don't know if it was, like, right after 
the Depression, or if they traveled in work; I think 
agricultural work.
    He had Japanese friends, so it wasn't just his language 
skill in some classroom. It was, I think, he liked the Japanese 
people. I think he didn't want to kill any more Japanese than 
he had to. And he risked his life to keep 1,500 of them from 
getting killed in a very dramatic way. And you think about, how 
many U.S. soldiers would we have lost if we had to kill another 
1,500 Japanese?
    And the point I am getting at, Dr. Krepinevich, is these 
are skills not just in irregular warfare. I mean, that is a 
dramatic example of potentially the value of language skills 
and I say cultural awareness in a very conventional war 
setting. What if we had another 10 of the Gabaldons on that 
island? What if we had 15,000 less Japanese that would have had 
to have been killed before that battle would have been over? 
What that would have meant for those families and to our 
Marines that would have died in it.
    So I think this issue of cultural awareness goes hand in 
hand with language skills, but it gets right, I think, down to 
the level of different kinds of combat. It has value in a lot 
of different areas of combat.
    I want to give you some specific scenarios, maybe get away 
from some of the squishiness of it. I know a young Marine in 
town here. He is one of our fellows who did a couple of tours 
in Iraq. And because of some civilian life experiences, his 
Arabic skills are good enough he could go on street patrols 
with Iraqi troops without an interpreter, and the value that 
comes from that.
    Now, what does that tell us about--you know, anybody who 
wants to comment; don't feel like you have to comment--but you 
are talking about somebody right down at the street level. One-
point-seven percent of a lot of intelligence officers doesn't 
get to that level unless we greatly enhance the number of 
folks.
    Now, is that an important goal or not? Do you have any 
immediate reaction? Or is the expense of it too great?
    I think in your statement, Andy, you talk a lot about it is 
the Marines and Army that needs to benefit from this the most 
because of their proximity to being on the ground. But that is 
a street patrol situation, not just a----
    Dr. Krepinevich. Well, again, if the Pentagon is serious 
about its determination to help build partner capacity, 
building partner capacity is going to involve training 
indigenous forces, it is going to involve advising them once 
they are trained. And language skills here, obviously, among 
the trainers is going to be important, and certainly the 
cultural aspect of it, and certainly advisors.
    Typically, there may be a handful of advisors in, say, an 
Iraqi battalion. And so, unless you are counting on the Iraqis 
to have a high degree of English proficiency or you are going 
to outsource translators and bring them in, it can make a 
significant difference in terms of having American advisors and 
trainers who do speak the language who can go out on patrols as 
advisors.
    Dr. Snyder. The question, then, is significant difference; 
that it is significant to such an extent that it is worth the 
investment in doing things differently and enhancing the road 
map and setting as a national priority for this country that we 
have to do better at kindergarten level up.
    Dr. Krepinevich. You know, there is the interesting debate 
that you raised in the questions leading up to the hearings 
about, well, what do you give up? And there are certain people 
in the Pentagon who are willing to give up things to accomplish 
this, certain people who aren't.
    Two years ago, I sat on a Marine Corps professional 
military education review board with a number of retired Marine 
generals. And they certainly thought that this was an important 
skill-set.
    Now, one thing we got into was the need, for example, to 
send American officers overseas to the staff colleges of 
foreign countries, the Indian Staff College, the Pakistani 
Staff College and so on, not only for the purpose of language 
and cultural awareness, but also for the purpose of building 
relationships among our mid-career officers with theirs so that 
someday 5, 8, 10 years down the road our generals know their 
generals.
    I had a Brit talk to me, it was a couple years ago, had 
worked with the Pakistani military for quite some time, said 
that he went back to Pakistan not too long ago and was greeted 
very warmly in the officer club by a lot of the senior officers 
and was treated very frostily by a lot of the junior officers. 
And he was very much concerned that the British military was 
losing that kind of relationship with the Pakistanis that had 
always helped them to, sort of, deal with difficult times in 
the past.
    So I think this works on a number of different levels, all 
the way from that street patrol in Baghdad, all the way up to 
the senior officer level.
    Dr. Snyder. I think it is well-accepted at the senior 
level. I don't think that is an issue.
    Dr. Brecht, you wanted to comment?
    Dr. Brecht. I would like to direct your attention to the 
written statement that I gave, which basically sets a future 
scenario in Niger, in northern Africa. And the argument is that 
presumably AFRICOM is divided into five regions, like the 
Africa Union does. And so these troops now, they are facing 
crowd control insecurity in food distribution because of a 
drought, say. And so the idea is that every one of these people 
has some idea, they are trained, basically they are aware of 
the cultural issues in this area. Many of them have basic 
phrases in the principal languages in Niger. Others can perform 
at the 2-2-plus level in 2 of the 15 core languages which are 
spoken there, Hausa and Fulfulda, okay. And so some officers, 
they know French, because they are communicating with the 
leadership there.
    And then if you take this notion that there is your 
internal capacity, but when you have someone, you are in an 
interrogation and this person is speaking in Arabic that we 
don't recognize, we can pull down this tool online which 
identifies Arabic dialects, and we find out that this is, you 
know, Shuwa Arabic, but nobody knows what that is, and so now 
we draw back and we reach back for that capability. We don't 
have to build it in there. And then we have a telephonic, 
online telephonic interpretation ability and things like that.
    What I try to demonstrate in this is that, if every unit, 
every person in that battalion had some idea of what the 
language and culture requirements are, they had a really good 
idea of what the capabilities, whether they had them themselves 
or whether they could draw them out, where they could reach 
back, outsource, or even rely on localized populations, but 
they will know in that area you can't localize the Arabic 
because we have insurrections.
    So I would agree with you very clearly that, if you want to 
build something new, we have to build this total force that 
everyone in the force is aware of the language and cultural 
requirements. They know where to get the expertise; they don't 
all have to have it. That is, I think, the lesson in this.
    Dr. Snyder. Of course, what I thought your scenario was--it 
is on page four and five of your written statement, of course, 
but it was at the very beginning, I noticed, when you said in 
the year 2021, which may be----
    Dr. Brecht. A little off.
    Dr. Snyder [continuing]. May be a realistic analysis of 
when we would have those skills.
    The other thing, Dr. Brecht, that you talked about is K 
through 12. And I forget when our next hearing is on this, but 
it is going to be hearing from the Administration, the 
Pentagon, about what they are doing on the defense language 
roadmap, which I look forward to.
    But Dr. Chu has been very candid about, for some years now, 
this is a national problem. And we have actually got defense 
dollars going to States. I think we are funding a language 
roadmap kind of scenario in three States. And then we have 
money going to K-through-12 programs, because you just can't 
keep recruiting people who don't speak any language at all and 
think that you can train your way somehow through a military 
career and language training to the levels you want to get. I 
mean, it is a national issue.
    You refer to, ``The DOD should continue to support and 
serve as the bully pulpit for improvement in the Nation's 
schools, colleges and universities,'' which I think is a really 
interesting statement. I mean, what you are saying is this is a 
national security challenge for us that is so great that it has 
to be solved in our schools. I mean, it has to start in 
kindergarten through all the schools, secondary, elementary, 
colleges, universities. And the Pentagon has to lead the charge 
in this, which I think is an interesting statement.
    By the way, we are hoping to have a hearing with these 
States that are getting Pentagon money to do the language 
programs, defense dollars, and see what they are doing. And 
George Miller, who is the chairman of our Education Committee, 
is going to plan to sit in with us on that, because he is very 
interested in that too.
    My time is up, but does anybody have any other comments?
    Dr. Krepinevich. I would just say there is a great 
historical analogy. I am old enough to remember when Sputnik 
went up. And right thereafter, my schoolteacher was wondering 
why little Krepinevich couldn't do his sums better. There was 
this huge sense that we were falling behind in science and 
technology against the Soviets. And there was a great deal of 
emphasis, resources, emphasis in the curriculum on science and 
mathematics to make sure that we either caught up or didn't 
fall further behind.
    And, again, the sense was that that was a national security 
problem for the United States, that the way to solve it was by 
increasing the competence of the American people writ large in 
terms of science and technology and engineering. Sadly, we 
have, kind of, fallen back in that hole again, if you look at a 
lot of the recent trends in science and technology.
    But, certainly, language and global economy, where when 
things go wrong it can affect our security, our economic well-
being because, you know, there is this kind of environment, 
certainly I think there is a legitimate case to be made that 
this needs to be a priority.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    And, again, I am afraid I might repeat a question. But if 
we could go back for a second to the ROTC issue that we talked 
about. And you made the suggestion that, instead of training 
people here in the States, even if they have good instructors, 
it would be better off to send them to a foreign country and 
have them learn in a better immersion program.
    Is that discussion being held? I mean, where should that 
discussion be held?
    I think with a lot of the issues that you have talked 
about, the roadmap, I think, and also the Defense Language 
Institute Foreign Language Center----
    Dr. Brecht. It is being held----
    Mrs. Davis of California. Who is driving that train, I 
guess? How do we really develop that conversation more to 
really identify the best programs?
    Dr. Brecht. It is my understanding that this program 
resides in the National Security Education Program Office, and 
Dr. Robert Slater is driving this. And I do believe that the 
Senior Language Authority in the Pentagon and Dr. Slater are 
talking about this issue and particularly maybe directing some 
of these funds more toward immersion. But I don't know anything 
more than that.
    Dr. Snyder. Susan, I am meeting with him tomorrow, and you 
are welcome to join us in my office.
    Mrs. Davis of California. Okay, that would be great.
    Do you think that the Defense Language Institute is doing 
what needs to be done today? Is there something that we should 
be speaking to that would push them in an expanded role here?
    Dr. Brecht. I think the Defense Language Institute is doing 
a remarkable job taking 19-year-olds and giving them language. 
The challenge they face is that the requirements have expanded 
so much that the Special Forces have requirements at the 0-
plus, 1-1-plus. And the Marines have different requirements and 
so on. Across the board the requirements are so broad, and no 
one institution can do it all.
    What they are doing I think they are doing very well, but 
they also have the mandate to reach out to the command language 
programs and so on. And I just think that the task they have 
taken on is huge. Raising, going to the 2-plus-2-plus-2 level 
is a huge challenge, to take a 19-year-old who may not want to 
be studying Pashto and take that person, where you can't even 
define standard Pashto, and take that person to a 2-plus is an 
incredible challenge.
    And so I think that, basically, I have seen a lot of 
language programs. And for full disclosure, I am on their board 
of visitors, so I don't want to seem like an advocate too much. 
But what I have seen, they are doing a remarkable job. It is 
just a very tough, uphill climb for them, for anybody trying to 
get those skills.
    And they can't satisfy the broad requirements of the whole 
military. Special Forces have different requirements. And the 
soldiers on the ground and the Marines, it is so broad, the new 
requirements of the day.
    Mrs. Davis of California. Yeah. Yeah.
    Does anybody else want to comment on that, the best way to 
get there?
    Obviously, earlier in elementary and secondary, having been 
on a school board at a time that we were trying to expand some 
languages, many, many years ago--and, you know, when you have 
budget problems, what goes first? You are just not able to 
follow through with that.
    I am pleased that there are some programs in the country 
that are doing a lot, a lot more than we were doing at that 
time. But part of it is the training of teachers. It is 
training them in a way that they weren't trained. Because even 
if you have language teachers, they were trained in a way that 
doesn't expand a student's ability to be fluent in a language, 
only to read and write. And that has to change, as well.
    I guess I would be interested in just hearing from you--
and, again, I am sorry I missed a lot of the earlier 
testimony--you know, what message would you really like to 
leave with us? What hasn't been asked that you want to be sure 
that we are aware of, that we are thinking about?
    Dr. Brecht. In K-12, I don't think there is any question, 
if you took $30 million and seeded dual language immersion 
programs across the United States, one in each State, where for 
half a day they are learning English and the other half of the 
day they are learning Hindi or Telugu or whatever. And those 
programs, those dual language programs are spreading across the 
country. They are one of the most successful K-12 experiments. 
And they get adult support, because the heritage communities 
are supporting them. And they fit No Child Left Behind, because 
they are doing English as well as the other languages, and so 
on.
    If I had one magic wand wave, it would be that, because the 
K-12 system has to be demonstrated that they can learn language 
and the education system can succeed. And I think that is the 
base of everything else.
    Mrs. Davis of California. With DOD funding?
    Dr. Brecht. No, that has to be Department of Education 
funding.
    Dr. Krepinevich. Well, a lot of the funding is local.
    There are some interesting studies out recently. One is 
called ``Falling Off the Flat Earth.'' It was done, I think, by 
the National Academy of Sciences. You can Google it. It talks 
about the terrible condition our science and engineering 
education is, in terms of K-12.
    I think the system is in crisis across the board; it is not 
just in science and engineering. And, again, there is 
precedent. I was just in a session with the chairman of Intel 
last week. You know, Intel is pouring tens of millions of 
dollars into the public education system, trying to encourage 
science, the study of science and so on. And one of the big 
problems they are finding is you can't get qualified public 
school teachers in those fields because they are in demand 
elsewhere because there is a growing shortage. The ones you can 
get in may know the field, but they may not necessarily be good 
teachers. And he said he had data that showed a lot of people 
who are teaching in these disciplines aren't qualified. So that 
turns the students off even further who might have originally 
had an interest in it.
    So you are in this downward spiral. And I don't know if it 
is the same in the language disciplines, but certainly, as I 
said, there is precedence. Fifty years ago, almost exactly 50 
years ago, there was this push that said you can't be 
competitive as a Nation, you can't have the underlying 
foundation for a strong economy that can produce a strong 
military that produces qualified, capable, literate soldiers if 
you don't have a good education system.
    Dr. Brecht. You said is there one thing, one message. The 
message is, and to answer the chairman's question: The Pentagon 
led racial integration. The Pentagon led gender equity issues, 
not out of altruism, but out of strictly pragmatic approaches 
to solving major problems that were endemic to the Pentagon's 
needs and to society. Language is another one.
    And that is what the bully pulpit means. You can't pay for 
it, but you can lead it. And that is what I think your mission 
could be.
    Mrs. Davis of California. If I might, Mr. Chairman?
    Dr. Snyder. Sure.
    Mrs. Davis of California. Because you raised an issue that, 
obviously, is an emotional and difficult issue. But the don't-
ask-don't-tell policy has been looked to as one area in which 
we had members of the services learning languages, being quite 
competent at them, who were separated from the service.
    Do you have anything you would like to say about that, in 
terms of how we use policy to, I guess, make a strong point 
that we really need people in the services that can speak 
languages? Does it impact on that at all?
    Don't want to touch it. Okay. That is all right.
    Dr. Snyder. Well, you will get another chance here.
    Mrs. Davis of California. Okay.
    Dr. Snyder. Dr. Brecht, I want to read a couple lines that 
you had here. On page six of your testimony, you say, quote, 
``Particularly challenging is the fact that the language needs 
of the Department of Defense are real and critical, but at the 
same time they appear to be so daunting that immediate and 
practical workarounds seem more attractive than anything that 
is proposed under the guise of a long-term solution. With 
troops moving around the world on short-term, 1- or 2-year 
deployments with hundreds, if not thousands, of languages in 
play and with many funding priorities competing, a 
comprehensive end-state of a language-competent and culturally 
aware total workforce simply looks out of reach.''
    And I think the reason I have been prying at this--well, 
what percent? And I knew you weren't going to be able to answer 
that; it is unfair. The Pentagon can't answer that. But we need 
to at least say, we have it in reach. We need to at least get 
to the point through all this that we can see, okay, we have a 
sense of where we are going. I think the Pentagon has a sense 
that they are moving in the right direction. I just don't think 
they have a sense yet of what that end point is, if everything 
is going as well as they want.
    But I think that is a pretty good statement, it just looks 
out of reach. It looks so daunting, it looks so daunting, what 
we are talking about. How can we get it--it doesn't even look 
in--well, we need to get it so it is in reach.
    Dr. Zalman, I think you have been trying to get a word in. 
Go ahead.
    Dr. Zalman. Well, I am a little slow. Well, but this 
actually is the right question to say it to.
    I actually don't think that it is out of reach. The idea of 
full competence, that is to say full fluency, in a difficult 
language does seem out of reach. But, for example, the example 
you gave before of the guy on the street who knows something, 
there is a generalizable skill, a portable skill that he had. 
In this case, he didn't view his interlocutor as exotic; he 
could get up close. Somebody else can learn those skills with a 
general cultural awareness training, something more elementary 
without full-on language skills.
    So I would divide, in order to make this not so daunting 
and not so hard to swallow expense-wise and labor-wise, would 
start to look at what kinds of elementary, portable skills and 
capabilities can everyone be trained in. And then you have a 
more, sort of, elite cadre.
    And might add that there may be more places to look for 
that. You alluded, the way that I read it, when you opened to 
the fact that the topic today, cultural awareness in the 
military, actually is a function of strategic communication or 
whatever we are going to call it next. So there are other 
places like the State Department, not that they are so well-
funded, but like Fulbrights, and there are so many places where 
this is important, that the military is only one of them, which 
is training a citizen to be a citizen in a globalized world.
    Dr. Snyder. That would be the Senator William Fulbright 
from Arkansas, is that correct, Dr. Zalman?
    Dr. Zalman. I benefitted from----
    Dr. Snyder. You were a Fulbright Scholar in Jordan, yes.
    I want to ask maybe Dr. Brecht, do you have any comment or 
did you form any opinion about the State roadmaps that the 
Pentagon is funding? I understand there are three States with 
pilots, and do you have a sense of how does it work? Are they 
called State language roadmaps?
    Dr. Brecht. Yes. They are a little uneven. But, frankly, I 
think we need 48 more, including the District. Because I have 
not seen business, local government and State government and 
academe collaborate more and hold a better dialogue on language 
and cultural understanding than in those. We have brought it 
down to actually real people with real local problems and 
dealing with the schools. And so, frankly, I think it was a 
wonderful experiment, and I just need 48 more.
    Dr. Snyder. Yeah.
    I have a couple more questions, I think. I have to throw 
out my off-the-wall idea. I have mentioned this off and on for 
the last several years. I actually did it initially almost as a 
kind of throwaway question, but I am not so sure that it is not 
a good idea, which is that this ought to start in boot camp.
    I was enlisted in the Marine Corps in 1967, Platoon 2059. 
And you ought to have some choice over it. But then you get 
assigned to the Farsi platoon. And for those 13 weeks that you 
are in boot camp or whatever boot camp is now, perhaps during 
meals--you would have to do it in a way that you wouldn't take 
away from learning to shoot a rifle or, God forbid, learning 
the march, but perhaps during meals you would have a native 
speaker in that language, not in that confrontational boot camp 
way, but your one break of the day, only you had to do it--all 
of you would converse, but it had to be in Farsi. And at the 
end of the 13 weeks, you would have probably some very basic 
exposure. Some would do well. Some would have chosen that 
language because they already had some background in it. And 
then see where that would lead.
    And maybe that would be--maybe they do that in that sense, 
Dr. Zalman, of cultural awareness. That that goes for some 
people that really hadn't had much foreign language training, 
hadn't traveled much, exposure to somebody from another 
country. For some it would perhaps be an early initiation to a 
language that they really didn't realize they had an aptitude 
for.
    But do you all have any comment about starting doing that 
kind of a thing?
    Dr. Zalman. Someone who was in the military once suggested 
to me that existing diversity training programs actually offer 
a platform for, within the military, offer a platform for 
learning about people who are beyond the military and in other 
countries.
    Dr. Brecht. Those of us who were in boot camp know that is 
mostly the first time anyone has left western Pennsylvania. 
They are already seeing cultures now, and being jammed up 
against a major culture, the military, and also subcultures for 
people from all over, and exploiting that would be a really 
good idea. Because we just jam them in there and make do, but 
no one has ever tried to make that first exposure to people 
from really different backgrounds a cultural experience that 
they could build on, leaving language aside, just on the 
cultural.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis of California. Earlier, just to go back a little 
bit, do we have the rewards in place to provide the kind of 
incentives for someone to go into a program, the ROTC one I 
mentioned, whether when they go on--are they there? Is it in 
terms of their ability to advance? Obviously, financial 
rewards.
    And what do you think it would take to really reward people 
for taking the time to learn a language in some depth? Any 
thoughts? The incentives aren't there now.
    Dr. Brecht. The foreign language proficiency pay incentive 
is significant that they put in place, but it is a very high 
level. It is a 3-3 in two languages, and, you know, that is 
huge, it is very high. And there are very few, if any, real 
incentives lower down.
    I think the ROTC issue is, if you said you have two months 
abroad, even if it is Kyrgyzstan, at least there is something 
that is there.
    And the simple answer is I don't think we have nearly 
enough in place to get people to stay long enough to reach 
those higher levels, let alone just deal with the lower levels 
that they need.
    Mrs. Davis of California. That is something that we need to 
work on.
    I might just tell a quick story. The captain who was 
working with the ROTC students who was in Iraq walked into a 
meeting that he said was so tense one day, you could just cut 
it in the tent, essentially. And he kind of walked in and was 
able to say in Arabic, you know, ``Where's the party?'' And it 
just relieved all the tension in the room, and people kind of 
decided to get down and try and work together.
    And I think that that says something about the ability to 
convey a message very strongly and to do it in the proper way. 
And that is what we need, people that are interested in wanting 
to do that.
    Dr. Brecht. We have another really good experiment: the 
National Language Service Corps, which is being put in place as 
we speak. You asked, what are the incentives for people joining 
that? There is patriotism. People will do it because it is good 
for the country, I believe. But one of the things that would be 
useful is, I don't think it is part of the program as yet, but 
their skills are assessed. But they also should be given some 
money to go take more language. And it may be a way, also, to 
support the academic programs in little languages in kind of a 
backdoor way.
    But this is another vital experiment done in the Department 
of Defense that could be very, very useful in building this 
cadre where you don't have to have everybody in every language 
but you have people in the warehouse waiting to be used.
    Mrs. Davis of California. Right. Thank you.
    Dr. Snyder. I have one final question, Dr. Brecht, and then 
I am going to tell a foreign language story, Susan.
    Very briefly, Dr. Brecht, you have one recommendation about 
that there should be somebody in the White House that oversees 
this. How did you come up with that idea? Just looking for ways 
to get it as a higher priority?
    Dr. Brecht. Senator Akaka, as you know, has a bill which 
hasn't gone anyplace at this moment, but there have been 
recommendations. We need somewhere high enough in the 
Government that says language, like science and technology, is 
a critical aspect of our society for the future. We don't have 
that. The fact you have the Office of Science and Technology 
Policy in the White House, that is the model; that at least 
there is someone, the bully pulpit.
    But it is not only defense. Defense shouldn't have to carry 
the whole language ball, obviously. And it crosses all the 
departments, and it also crosses into education, and getting 
someone high enough to bring the sectors of education, industry 
and Government and the heritage communities, and to get that 
position at least visible. That was where it comes from.
    Dr. Snyder. Let me extend to you the offer, I will ask it 
as a question for the record, if any of you come up with any 
written material you would like to provide or add on to any 
answers, feel free to do that, and it will be added as a 
question for the record.
    Let me close. I will tell you my one story about foreign 
language skills. I was working as a doctor in the Cambodian 
refugee relief effort along the Thai-Cambodian border in 1981. 
And we would go out in these Thai villages and hold clinics. 
And the hospital that I admitted sick patients to was run by 
Italians. And one day I went to a village, and there was a 
lovely young 19-year-old woman with a sky-high fever, a 
terrible dull pain, right-upper quadrant pain, and I knew she 
was sick and probably was going to need to have her belly 
opened up to see what was going on. I took her to the Italian 
hospital.
    Well, I was here, and then my interpreter who spoke English 
and Thai was here. And then he spoke to the woman who spoke 
Thai and Italian, and then the Italian doctor was down there. 
So there were four of us. And I would say something and boom, 
boom, boom, boom. I think it was old Danny Thomas event, with 
Uncle Tonoose, if you remember that show.
    So, anyway, in the course of this conversation, going back 
and forth, I said, ``It is possible this is an atypical 
presentation of appendicitis,'' a retrocecal appendix I think 
is what it was called back when I actually practiced medicine, 
meaning it can cause right-upper-quadrant pain rather than 
right-lower-quadrant pain. So I leave it there.
    I come back, like, three days later, I want to see how she 
is and what happened. And I go to her bed, and she is not 
there. And they say, well, she is outside getting water. I go 
out there, and she is carrying a bucket of water, walking 
around. I get her to come in and lay down. She doesn't speak 
any English. And she has this very neat, healing, short, small, 
right-lower-quadrant appendix scar. And I thought, how does an 
Italian doctor know that he just had to go in like that and not 
have to just open her up to see what is going on?
    So I get them lined up again; you know, the doctor down 
here. So I said, how did you know that was a retrocecal 
appendix? And he turns to the Italian doctor, and his eyes get 
big, and he says, ``I thought that was your diagnosis.'' 
[Laughter.]
    So that is all. We are adjourned. Thank you all.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.
      
=======================================================================

                            A P P E N D I X

                              July 9, 2008
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 9, 2008

=======================================================================
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                              July 9, 2008

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              July 9, 2008

=======================================================================
      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. While the current focus is properly on Iraq and 
Afghanistan, do you feel DOD is doing enough to build up a resident 
capability in other languages and regions that might present 
opportunities for engagement in the future or become security risks?
    Dr. Brecht. In my view, the DOD could do more especially with the 
languages of Africa. As I indicated in my testimony, there is a sense 
among some leaders hard pressed for resources that the problem is 
simply too large to address. However, I believe there are practical 
steps that can be taken to begin to build an African language 
capability in the DOD. Indeed, while in many parts of Africa a colonial 
and official language are sufficient for official communication, the 
requirements of the department clearly extend well beyond 
communications within official channels as well as into areas of the 
continent where so-called official channels may not even exist. This 
requires a significant investment in regional languages as well as in 
many of the languages and dialects in critical areas of the continent.
    More generally, the Department has identified ``investment 
languages'' that reflect current and projected requirements. The 
problem is that, for any given geographical area, national and regional 
language policy, social conditions, and local linguistic habits are 
constantly evolving, and future DOD capabilities projections must take 
these factors into consideration. For example, will Russian be the 
lingua franca for Central Asian countries in twenty years as it is now? 
Will the trilingual habits of Africans change with the growing 
influence of national languages and global English? Which Arabic 
dialects will be most commonly used for insiders' speech in North 
Africa in the next ten years? Clearly, strategic planning and future 
projections in national security should be augmented by sociolinguistic 
research on future language usage in targeted areas.
    Finally, in order to be able to bring to bear the appropriate 
linguistic and cultural expertise for unanticipated developments around 
the world, the less-commonly-taught language expertise in the nation's 
colleges, universities, and heritage communities must be maintained and 
enhanced. Title VI/Fulbright Hays of the Higher Education Act is the 
nation's major asset in this regard, the major priority of which is to 
guarantee our nation's access to expertise, programs, and resources in 
world area, languages and cultures.
    In all respects, the DOD's shift to capabilities-based requirements 
in place of needs-based requirements is a critical step in the right 
direction. This focus on capabilities, enhanced with a ``language 
futures'' approach to strategic planning, could help address the 
problem inherent in the current requirements driven process that makes 
it difficult to invest in languages that may not be important today but 
could be critical to national security tomorrow.
    Dr. Snyder. What are your views about the success of the Defense 
Language Institute's Foreign Language Center in guiding the process and 
identifying the principal needs of DOD's language requirements? What 
about the Service centers for Language and Cultural Excellence? Can you 
give us an evaluation of them?
    Dr. Brecht. As far as I know, the DLIFLC is not responsible for 
identifying the DOD's language requirements, but it must respond to 
requirements formulated and passed on by the services. Unfortunately, 
these requirements seem to be focused on short term real needs and 
therefore changeable according to the latest crisis. This situation 
creates a significant challenge for the DLIFLC, given the fact that 
hiring and firing language faculty cannot be accomplished as rapidly as 
language requirements change in a system driven by immediate needs.
    In general, I believe the services' efforts at identify 
requirements have improved significantly; however, this is an area that 
needs constant attention. Overall, as stated above, the department's 
moving from threats to capabilities in the specification of language 
needs is a major improvement, and there are efforts at the highest 
levels to get the requirements right. Again, we still need to consider 
a ``language futures'' approach to determine which languages and 
dialects will be relevant in regions identified as critical in the 
future.
    Unfortunately, I am not in a position to evaluate the Service 
centers for Language and Cultural Excellence. I know that they are 
working very hard to address their specific service's needs, but I have 
not worked with them sufficiently to offer an opinion on their 
effectiveness.
    Dr. Snyder. How much can existing and likely technological 
improvements offset the need for actual language training?
    Dr. Brecht. Technology, together with advances in cognitive, 
cognitive neuroscience and language research, will greatly facilitate 
language learning in the future. (In fact, one of CASL's strategic 
goals is to dramatically reduce the time it takes to learn a language 
and measurably improve the effectiveness of the process.) If 
effectively deployed, this combination of tools and science can 
dramatically improve classroom learning. More importantly, in the 
future, language learning will be available on-demand on the job, thus 
enabling life-long language learning needed by DOD career 
professionals. While this will greatly relieve the classroom burden, 
there is always be a need for good classroom teaching in initial stages 
of instruction as well as in on-line courses delivered to the field.
    Dr. Snyder. In your testimony, you stated that the Department of 
Defense ``should continue to support and serve as the bully pulpit for 
improvement in the Nation's schools, colleges and universities'' and 
suggested that, for foreign language proficiency, as was the case for 
racial integration and gender equality, the Pentagon should lead the 
way with a pragmatic solution. You also argued for the drafting of 
state language roadmaps in the remaining 47 states and the District of 
Columbia and suggested that by using seed-money for dual language 
schools, the K-12 system could demonstrate that foreign language could 
be taught successfully in the education system.
    We'd like to hear more about your perspectives on the state 
language roadmaps.
    Dr. Brecht. The DOD-funded state roadmaps were an attempt to 
reenergize language education at the state and local levels, where 
education policy and funding have traditionally resided in the U.S. 
While national security concerns since 9/11 have focused federal 
efforts on language, the strategic view requires states and local 
jurisdictions to support language education as never before. The state 
roadmaps can create the first dialog and necessary synergy among 
government agencies, industry, not-for-profit organizations, 
foundations, and the language teaching professions.
    At this stage, we have seen three state roadmap efforts take place, 
and we have learned a lot about how to make them more effective and how 
to keep them moving forward. However, being limited to these three 
states, this initiative has not benefited the rest of the states, and 
thus the nation as a whole, by establishing models to be emulated and 
creating synergies among states. The state roadmap initiative could be 
made into an unprecedented national effort on behalf of language in the 
United States. We know from recent polls that the parents of our 
children are ready for action in this area; we just have not been able 
to come up with a practical strategy that limited state and local 
budgets and time constraints can support. No one school, district, or 
state education agency can do enough alone, but a combined effort of 
the constituents listed above might just ``tip'' the system towards a 
``plurilingual'' America (to use a European Union term). Without this, 
the DOD will continue to expend huge amounts of resources to accomplish 
what the education system should have already done.
    Dr. Snyder. Can you provide more detail on what actions should be 
taken to improve the K-12 education system's ability to meet the 
Department of Defense's foreign language proficiency needs?
    Dr. Brecht. The underlying assumption of this question is, in my 
view, absolutely appropriate: The education system should assume more 
of the burden of language education, thus enabling the DOD to focus on 
rarely taught languages, high levels, and language for specific tasks 
and purposes. The Department has made this point of view clear in the 
last several years, and it must now continue its financial support of 
NSEP efforts as well as its advocacy of the role of the education 
system in meeting the language needs of the country.
    For the immediate future, I believe there are three distinct steps 
to be taken: First, State Language Roadmap efforts should be undertaken 
in all fifty states and District of Columbia. Second, the USED K-12 
component of the NSLI should be funded and implemented. Third, the 
Department of Education should launch a new dual language immersion 
program aimed at funding start-up dual language programs across the 
country, presumably under the NSLI mandate.
    Finally, in September 2005 I delivered a paper at a conference at 
the University of California Berkeley that lays out the broader, 
national perspective of the role of schools and universities in 
language education in the United States: ``Outlines of a National 
Language Education Policy in the Nation's Interest: Why? How? Who is 
Responsible for What?'' With some hesitancy, I attach it here in the 
belief that it provides the broader perspective on language education 
that you are seeking here. (See attachment.) This paper makes the case 
that a comprehensive plan is required, one that is cohesive and 
collaborative, and that its components are not beyond current budgetary 
and political realities.
    [The information referred to can be found in the Appendix on page 
119.]
    Dr. Snyder. Please outline the respective roles DOD, the Department 
of Education, and the states should play in taking those actions and 
how the drafting of state roadmaps can further those aims?
    Dr. Brecht. The DOD should continue the implementation of the 
Language Transformation Roadmap, moving on to a next phase of planning 
and development that continues to support the Flagship programs of the 
NSEP. The Department should also continue to be a major voice and bully 
pulpit in support of language education in the United States, given the 
fact that the DOD has influence among the American people and their 
elected representatives that no other constituency in this country has. 
The Department of Education, for its part, should add language to its 
English and mathematics priorities and put in place structures and 
funding to dramatically improve language education in this country. 
This USED effort should focus on supporting states and local 
jurisdictions as they implement state roadmaps that create the 
partnerships and synergies that will make language education change 
possible.
    It has been particularly damaging to the nation's language capacity 
that Congress has not funded the USED component of NSLI, and so the 
department should make this one of its priorities.
    Finally, dual language immersion programs should be launched across 
the country. These programs are composed of children, half of whom 
speak English as a native language and half speak a language other than 
English with their parents at home. In the morning the language of 
instruction is in the foreign language, say Mandarin, and the afternoon 
sessions are conducted in English. This kind of program has proven 
effective in giving English speaking children very impressive foreign 
language skills, while on the other hand it supports NCLB by 
strengthening the English skills of members of our heritage 
communities.
    In sum, there is no question that a significant investment at the 
K-12 level would raise the bar at every level of language education in 
this country, both in numbers of students and levels of proficiency, 
thus buttressing every other element of the NSLI.
    Dr. Snyder. While the current focus is properly on Iraq and 
Afghanistan, do you feel the DOD is doing enough to build up a resident 
capability in other languages and regions that might present 
opportunities for engagement in the future or become security risks?
    Dr. Zalman. As the outbreak of violence between Georgia and Russia 
and the subsequent aid shipments by US Navy and Air Force suggest, the 
U.S. has entered an era in which estimating potential military 
engagement is difficult, at best. The U.S. must be prepared for 
engagement anywhere, in a variety of modalities (military force, 
humanitarian aid, peacekeeping, nation-building, etc.). This 
recognition is evident in the DOD's vigorous emphasis on creating a 
global force capable of leveraging capabilities across regions.
    Given this reality, the DOD will be well served by committing 
resources to building up a generic resident cultural competence \1\ 
capability, in addition to building regional/linguistic capabilities in 
currently foreseeable areas of potential engagement, such as Southeast 
Asia, and Africa's northern tier.
---------------------------------------------------------------------------
    \1\ The term cultural competence is used widely in health, mental 
health and educational contexts. It usefully denotes not only 
awareness, but also a skill; the ability to do something.
---------------------------------------------------------------------------
    Cultural competence is a composite skill set that enables people to 
enter into an unfamiliar situation with enough cognitive agility to 
interact, observe and learn from their interactions with others. 
Cultural competence is something people ``do'' in interactive 
situations, as opposed to a kind of knowledge that they ``have'' about 
others. Cultural awareness manifests itself when soldiers, sailors, 
airmen and marines can mobilize information about their own and others' 
cultural predispositions in order to influence adversaries or 
communicate collaboratively with partners.
    This capability can be created through training in basic skills 
such as: how to work in culturally diverse environments, cross-cultural 
management, negotiation and conflict mediation, and training in the 
tools of self-reflection. While Special Forces routinely train in these 
skills, the approach among regular forces is more haphazard.
    The experiences of those deployed in Iraq and Afghanistan have 
amply demonstrated the need to cultivate these skills among officers 
and senior enlisted members. Knowing etiquette or even basic 
demographic facts about their surroundings is not enough. Many require 
the ability to negotiate, distribute resources or manage competing 
demands in cross-cultural contexts.
    Training that helps military members practice and transport such 
skills across regional and linguistic lines will indicate a deepened 
commitment to preparing forces for the potential engagements of the 
future.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. The Department of Defense established the National 
Language Services Corps pilot program in 2007. This effort will 
identify Americans with skills in critical languages and develop the 
capacity to mobilize them during times of national need or emergency. 
The National Language Services Corps represents the first organized 
national attempt to capitalize on our rich national diversity in 
language and culture. This organization has a goal of creating a cadre 
of 1,000 highly proficient people, in 10 languages, by 2010. What do 
you see as its potential to support broader national security 
objectives of increasing cultural awareness and foreign language 
capabilities?
    Dr. Brecht. In my view, the National Language Service Corps has the 
potential to play a critical role in our strategic approach to 
language, culture and national security in the United States. As I 
indicated in my testimony, no single element in the USG can house all 
the linguistic and cultural capabilities needed for the indefinite 
future. All agencies must find a way to recruit, train, and maintain an 
in-house language and culture capability, but they must also be ready 
to localize, outsource, and warehouse resources against unexpected 
requirements. The NLSC demonstrates the warehousing capability, serving 
as a pilot and model for the future.
    In addition, if as part of its design the NLSC would support the 
maintenance and enhancement of critical language abilities of its 
members, less commonly taught language programs around the country 
would have access to a broader clientele, thereby justifying their 
existence and traditionally low enrollments to managers in academe and 
industry.
    Mr. Johnson. How important do you believe it is to use a program 
like the National Language Services Corps to access Americans with 
diverse language and cultural skills to support our agencies during 
national emergencies in the near-term?
    Dr. Brecht. A major advantage of the NLSC is the potential to 
recruit heavily from our almost 50 million member heritage communities 
across the country. While there is a range of challenges involved in 
recruiting from many of these communities, these citizens can provide a 
level of language competence that is difficult to acquire for native 
English speakers. In addition, such a recruitment effort will also send 
an important message to speakers of other languages in this country: 
that their language abilities are critical to our common well-being and 
that, in addition to learning English, their duty as citizens is to 
maintain their native language as a service to this country.

                                  <all>

</pre></body></html>
